                                         National Railroad Passenger Corporation
                                         Office of the Inspector General
                                         10 G Street, N.E.
                                         Washington, D.C. 20002

Final Audit Report 504-2009 – Issued December 22, 2010

Incurred Cost Audit: Amtrak’s Track Replacement and Related Improvements Contracts

Audit Identified a Total of $351,205 in Questioned and Unsupported Costs

The information below provides a summary of the final audit report 504-2009. The
final report contains contractor proprietary information that should not be publicly
released.     We have summarized below the major findings, conclusions,
recommendations, management comments, and audit response.

Amtrak awarded two cost reimbursable plus fee contracts up to a combined guaranteed
maximum price of over $11 million to perform work related to track replacement and
related improvements. Our audit objective was to determine the accuracy and
acceptability of costs invoiced by the Contractor.

                         We identified $221,925 in net questioned costs and $129,280 in
 We identified           unsupported costs for a total of $351,205 that could potentially
 $351,205 in             be recovered. The questioned costs were primarily the result of
 questioned and          overstated labor and labor add-ons, such as benefits, and district
 unsupported costs.      shop expenses, equipment costs, safety awards, and certain
                         subcontractor costs that were not in accordance with the contract
or specifically allowed by the contract. We found that the Contractor did not provide
adequate support for business managers’ labor and labor add-ons, and for related
equipment costs invoiced to Amtrak.

We also found that Amtrak’s Department of Procurement and Materials Management
(Procurement) did not ensure that all costs invoiced by the Contractor were in compliance
with contract provisions. Amtrak’s Procurement office and project manager did not
ensure that the Contractor’s invoices were adequately and appropriately supported.

Our draft report recommended that Amtrak take steps to recover overpayments and
remind staff to ensure that costs are adequately supported before paying vendor invoices.
Amtrak Management’s response to the draft report disagreed with most of the questioned
and unsupported costs, and with the recommendation to remind staff to ensure costs are
supported before paying vendor invoices. Management’s response, however, did not
contain sufficient facts or rationale to rebut the validity of the findings. Management’s
response in this case indicates a lack of appropriate attention to management controls
over payments.
Given this lack of attention, we addressed our final report and recommendations to a
higher level Amtrak official. We recommend Amtrak’s Chief Financial Officer direct
staff to initiate negotiations with the Contractor to recover the questioned and
unsupported costs we identified, and to remind staff to ensure that costs are adequately
supported before paying vendor invoices.
